                                ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C
                                                                                 OFFICE OF
                                                                             INSPECTOR GENERAL



May 6, 2004

Memorandum

Subject:	       Auditor’s Report for the Missouri State Revolving Fund Program (the Program)
                as of June 30, 2003
                Audit Report No. 2004-1-00057

From:	          William M. Dayton
                National SRF Audit Manager


To:	            James B. Gulliford
                Regional Administrator
                EPA, Region 7
                Kansas City, KS

Attached is a copy of the subject audit we sent to the State of Missouri. The audit contains
reports on the financial statements, internal controls, and compliance requirements applicable to
the State Revolving Fund (SRF) programs in Missouri for the year ended June 30, 2003.

We issued an unqualified of opinion on the financial statements. However, we noted several
matters involving the internal control system and operations that we consider to be material
weaknesses. We also qualified our opinion on the compliance requirements applicable to the
SRF program because the Missouri Department of Natural Resources (DNR) did not maintain an
adequate accounting system to account for SRF activities in accordance with the Clean Water
Act, as detailed in the reports. In response to the draft audit report, SRF management agreed with
all of our internal control and compliance items, and are taking appropriate steps to correct the
deficiencies.

In accordance with EPA directive 2750, the Action Official is required to take action on the
findings and recommendations in this report within 150 days.

The OIG has no objection to the release of this report to any member of the public upon request.
The report contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact me at
(916) 498-6590 or Mr. Paul Felz at (303) 312-6270.

Attachment
                                ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C
                                                                                  OFFICE OF
                                                                              INSPECTOR GENERAL

May 6, 2004

Mr. Stephen Mahfood, Director
Missouri Department of Natural Resources
P.O. Box 176
Jefferson City, MO 65102-0176


Subject:         Auditor’s Report for the State of Missouri Department of Natural Resources
                 Clean Water State Revolving Fund for the Year Ended June 30, 2003.
                 EPA Audit Report No. 2004-1-00057

Dear Mr. Mahfood:

Enclosed please find an electronic copy of the final audited financial statements for the State of
Missouri Department of Natural Resources Clean Water State Revolving Fund ) for the year
ended June 30, 2003.

The purpose of our audit was to:

           •	    Examine the financial statements of the State of Missouri Department of Natural
                 Resources Clean Water State Revolving Fund for the year ended June 30, 2000,
                 and issue a report containing our opinion of the financial statements;

           •	    Report on the internal control structure of the State of Missouri Department of
                 Natural Resources Clean Water State Revolving Fund program;

           •	    Report on compliance with specific program requirements of the State of
                 Missouri Department of Natural Resources Clean Water State Revolving Fund.

We have issued an unqualified opinion on the financial statements and an qualified opinion on the
compliance requirements because Missouri did not maintain an adequate accounting system to
account for SRF activities in accordance with the Clean Water Act. In our report on internal
controls, we also noted several matters involving the internal control structure and its operations
that we considered to be a material weaknesses. We discussed these reports with your program
management who generally agreed with the results of our audit.

We would like to thank you and your staff for the cooperation and courtesies we received during
our audit. If you have any questions or concerns, please contact me at (916) 498-6590 or Mr.
Paul Felz at (303) 312-6270.


Sincerely,



William M. Dayton
National SRF Audit Manager
   OIG

   OFFICE OF INSPECTOR GENERAL


                                   Catalyst for Improving the Environment


Audit Report

Missouri Department of Natural Resources
State Revolving Funds




Financial Statements with
Independent Auditor’s Report, June 30, 2003


Audit Report Number 2004-1-00057



Issued May 6, 2004
                                                    Missouri Department of Natural Resources
                                                             State Revolving Funds

                                                                        Table of Contents


Independent Auditor’s Report..............................................................................................................................................1


Combining Statement of Net Assets....................................................................................................................................2


Combining Statement of Revenues, Expenses and Changes in Net Assets ......................................................................3


Combining Statement of Cash Flows...................................................................................................................................4


Notes to the Financial Statements .......................................................................................................................................5


Independent Auditor’s Report on the Internal Control Structure Based on an

        Audit of the Financial Statements Performed in Accordance with Government Auditing Standards ............17


Independent Auditor’s Report on Compliance with the Requirements Applicable to the Environmental Protection 

        Agency’s State Revolving Fund Program in Accordance with Government Auditing Standards..................23


Supplemental Information ..................................................................................................................................................29

                                   ENVIRONMENTAL PROTECTION AGENCY
                                           WASHINGTON, D.C
                                                                                                 OFFICE OF
                                                                                            INSPECTOR GENERAL



                                         Independent Auditor’s Report

To: Steven Mahfood, Director

   Missouri Department of Natural Resources



We have audited the accompanying Combining Statement of Net Assets of the Missouri Department of Natural 

Resources State Revolving Funds (the Funds) as of June 30, 2003, and the related Combining Statement of 

Revenues, Expenses and Changes In Fund Net Assets, and Combining Statement Of Cash Flows for the year then 

ended. These financial statements are the responsibility of the Program’s management. Our responsibility is to 

express an opinion on these financial statements based on our audit.


We conducted our audit in accordance with generally accepted auditing standards in the United States of America
and Government Auditing Standards issued by the Comptroller General of the United States of America. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting principles used
and significant estimates made by management, as well as evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the Missouri Department of Natural Resources State Revolving Funds as of June 30, 2003 and
the results of their operation and cash flows for the year then ended in conformity with generally accepted
accounting principles.

As discussed in Note 1, the financial statements referred to above are intended to present the financial position and
results of operations of the State Revolving Fund Programs, which are components of the general fund of the State
of Missouri. These statements are not intended to present the financial position or results of operations for the State
of Missouri or the Missouri Department of Natural Resources, of which the Funds are a part. Certain supplementary
information referred to as Management Discussion and Analysis, although not a required part of the basic financial
statements, has been omitted for this program-specific financial presentation.

In accordance with Government Auditing Standards, we have also issued a report dated February 18, 2004 on our 

consideration of the Programs’ internal control structure and a report dated February 18, 2004 on their compliance 

with laws and regulations.




Office of the Inspector General

February 18, 2004





                                                            1

                                                      State of Missouri
                                    Department of Natural Resources State Revolving Funds
                                                  Combining Balance Sheet
                                                        June 30, 2003
                                                       (in thousands)

                                                                                       Total Enterprise
                                                                       Drinking             Funds         Combined           Totals
                                                Clean Water             Water          (Memorandum         Agency         (Memorandum
Assets:                                          Enterprise           Enterprise            Only)          Funds             Only)
Current Assets:
Cash and cash equivalents                       $     286,147     $         9,484      $      295,631     $ 282,681       $        578,312
Current Receivables:
 Loan interest                                         23,890               3,342              27,232             -                 27,232
 Investment interest                                      821                   -                 821           543                  1,364
 Administration fees                                    1,200                   -               1,200             -                  1,200
 Due from other funds                                     288                   6                 294             -                    294
 Due from trustee                                         147                   -                 147             -                    147
 Due from EPA                                               -               1,580               1,580             -                  1,580
 Other                                                    270                 260                 530             -                    530
 Current portion of loans receivable                   51,955               4,622              56,577             -                 56,577
Total current assets                                  364,718              19,294             384,012       283,224                667,236

Restricted assets - cash and cash equivalents           4,749                397                 5,146            -                   5,146

Non-current assets:
Loans receivable:
 Leveraged loans                                       758,239            135,825              894,064            -                 894,064
 Reserve loans                                         352,987             43,788              396,775            -                 396,775
 Direct loans                                            6,637              3,650               10,287            -                  10,287
 Direct Non-point source loans                           7,734                  -                7,734            -                   7,734
 Total loans receivable                              1,125,597            183,263            1,308,860            -               1,308,860
  Less: Current portion                                (51,955)            (4,622)             (56,577)           -                 (56,577)
Loans receivable, net                                1,073,642            178,641            1,252,283            -               1,252,283

Fixed assets, net of accumulated depreciation              48                      -                48            -                     48

Total assets                                         1,443,157            198,332            1,641,489      283,224               1,924,713

Liabilities and Net Assets:
Liabilities:
Current liabilities:
 Accounts payable                                            96                 -                    96             -                   96
 Accrued salaries and benefits                                -                 -                     -             -                    -
 Project Costs Payable to Communities                         -                 -                     -       275,609              275,609
 Interest Subsidies Payable to Communities                    -                 -                     -         6,524                6,524
 Bond Interest Payable                                   24,201             3,342                27,543             -               27,543
 Current Portion of Bonds Payable                        31,457             3,385                34,842             -               34,842
 Due to other funds                                          25             1,580                 1,605            42                1,647
 Other                                                        -                 -                     -         1,049                1,049
Total current liabilities                                55,779             8,307                64,086       283,224              347,310

Non-current liabilities:
 Bonds Payable, net of discounts                        741,782           132,440               874,222               -            874,222
 Rebate Payable                                           4,973               403                 5,376               -              5,376
Total non-current liabilities                           746,755           132,843               879,598               -            879,598

Total liabilities                                       802,534           141,150               943,684       283,224             1,226,908

Net assets:
 Invested in capital assets, net of debt                     48                 -                    48               -                 48
 Restricted for loans and debt service                  640,575            57,182               697,757               -            697,757
Total net assets                                        640,623            57,182               697,805               -            697,805

Total liabilities and net assets                    $ 1,443,157       $   198,332       $     1,641,489    $ 283,224          $   1,924,713

                                           See notes to financial statements
                                                           2
                                            State of Missouri
                                  Drinking Water State Revolving Fund
                                Combining Income Statement Drinking Water
                                    For the year ended June 30, 2003


                                                                     Administrative   Total Enterprise
                                                     Loan Fund         Fee Fund            Fund
Operating revenues:
 Interest income on SRF loans                    $      5,795,738     $          -    $      5,795,738
 Investment income                                        212,260            4,011             216,271
 Adminstrative fees                                             0          360,574             360,574
 EPA set-aside operating grants                         2,343,732                0           2,343,732
 Other                                                          0                0                   0
Total operating revenues                                8,351,730          364,585           8,716,315

Operating expenses:
 Interest expense on bonds payable                      5,786,753                0           5,786,753
 Salaries and benefits                                  1,267,053                0           1,267,053
 Other administrative expenses                          1,076,679               19           1,076,698
Total operating expenses                                8,130,485               19           8,130,504

Operating income                                         221,246           364,566            585,811

Non-operating revenue:
 Environmental Protection Agency grant                 16,253,966                0          16,253,966
 State of Missouri contribution                         6,320,987                0           6,320,987
Total non-operating revenue                            22,574,953                0          22,574,953

Increase in net assets                                 22,796,199          364,566          23,160,764

Net assets, beginning of year                          33,726,744          294,320          34,021,064

Net assets, end of year                          $     56,522,942     $    658,886    $     57,181,828




                                       See notes to financial statements
                                                       3
                                            State of Missouri
                          Department of Natural Resources State Revolving Funds
                                  Combining Statement of Cash Flows
                                              June 30, 2003
                                             (in thousands)


                                                                                              Total Enterprise
                                                                              Drinking             Funds
                                                       Clean Water             Water           (Memorandum
                                                        Enterprise           Enterprise            Only)
Cash flows from operating activities:
 Interest received on loans                    $               31,804    $         4,938      $        36,742
 Interest paid on bonds                                       (31,766)            (4,929)             (36,695)
 Deposits to rebate account                                       498                 23                  521
 Administrative fees                                            2,330                207                2,537
 EPA set-aside grants                                               -              1,509                1,509
 Salaries and benefits                                         (1,604)            (1,267)              (2,871)
 Other administrative expenses                                 (1,388)            (1,077)              (2,465)
 Investment Income                                              4,832                216                5,048
 Other income                                                       7                  -                    7
 Repayment received from DWSRF short-term loan                    190               (190)                   -
 Loan to stormwater program                                       (43)                 -                  (43)
 Cash for Administration Fees                                      24                  -                   24
 Other                                                            (14)               835                  821
Cash provided by operating activities                           4,870                265                5,135

Cash flows from noncapital financing activities:
  Bonds issued
                                              208,770              38,150             246,920
 Bond principle retired
                                     (25,769)             (2,230)            (27,999)
  Environmental Protection Agency grant
                      58,266              16,444              74,710
  State of Missouri contribution
                             10,257               6,321              16,578
Net cash provided by noncapital financing activities         251,524              58,685             310,209

Cash flows from investing activities:
  Loan disbursements                                         (252,056)           (65,375)            (317,431)
  Repayments received on loans                                 52,580              3,965               56,545
Net cash (used) gain in investing activities                 (199,476)           (61,410)            (260,886)

Increase in cash and cash equivalents                          56,918             (2,460)              54,458

Cash and cash equivalents, beginning of year                 233,978              12,341             246,319

Cash and cash equivalents, end of year                       290,896               9,881             300,777


Reconciliation of net operating income to net cash
     provided by operating activities:

 Operating Income
                                              3,913                586                4,499
 Adjustments to reconcile net operating income to

     net cash provided by operations:

 Depreciation and amortization
                                    19                     -               19
 Changes in assets and liabilities:

  (Increase) in current assets
                                (2,913)            (1,823)              (4,736)
  Increase in current liabilities
                              3,851              1,502                5,353

Net cash provided by operating activities              $        4,870    $           265      $         5,135




                                        See notes to financial statements
                                                        4
                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 1: Summary of Significant Accounting Policies

       Reporting Entity

       The Missouri Department of Natural Resources (MDNR) is responsible for administration of the State
       Revolving Fund (SRF) Program, consisting of the Clean Water State Revolving Fund Program (CWSRF)
       and the Drinking Water State Revolving Fund Program (DWSRF). In conformance with generally
       accepted accounting principles, the financial data of MDNR, including a portion of the SRF programs, is
       included with the State of Missouri’s financial data reported in the Statewide Comprehensive Annual
       Financial Report. The SRF programs’ financial statements, footnotes, and related schedules are presented
       for the benefit of U.S. Environmental Protection Agency. Due to differences in reporting methods, there
       may be differences between the amounts reported in these financial statements and the general purpose
       financial statements.

       Clean Water State Revolving Fund:

       The CWSRF was established pursuant to Title VI of the Federal Water Quality Act of 1987 (the Act). The
       Act established the CWSRF program to replace the construction grants program to provide loans at
       reduced interest rates to finance the construction of publicly owned water pollution control facilities, non
       point source pollution control projects, and estuary management plans. Instead of making grants to
       communities that pay for a portion of building wastewater treatment facilities, the CWSRF program
       provides for low interest rate loans to finance the entire cost of qualified projects. The CWSRF program
       provides a flexible financing source that can be used for a variety of pollution control projects, including
       nonpoint source pollution control projects, and developing estuary conservation and management plans.
       Loans made must be repaid within 20 years, and all repayments, including interest and principal, must
       remain in the loan fund.

       The CWSRF was capitalized by the U.S. Environmental Protection Agency (EPA) by a series of grants
       starting in 1988. The State of Missouri (the State) is required to provide an additional 20 percent of the
       federal capitalization grant as matching funds in order to receive a grant. As of June 30, 2003, Congress
       authorized EPA to award $514,237,000 in capitalization grants to the State. The State is required to
       contribute $102,847,000 in matching funds.

       The Missouri Clean Water Commission exercises supervision of the administration of the CWSRF
       program. The Missouri Environmental Improvement and Energy Resources Authority (EIERA) issues
       bonds or notes, secured by SRF funds, to finance qualified projects. The program is comprised o f four
       funds within the State, and an agency fund that holds the construction loan funds. The State funds are: the
       Water and Wastewater Loan Fund (fund 649) that receives the federal capitalization grant and State
       matching funds and makes payments to the loan reserve fund, the Water and Wastewater Loan Revolving
       Fund (fund 602) that receives funds as they are released from the loan reserve, the Administrative Fee
       Fund (fund 568) that receives the loan fees charged to borrowers, and the State Match Bond Fund (fund
       300) that receives proceeds of the sale of State match bonds that will be repaid using interest earning from
       SRF recycled funds. The Agency Fund accounts for proceeds of bonds issued by EIERA.

       Drinking Water State Revolving Fund:

       The DWSRF was established pursuant to the Safe Drinking Water Act (SDWA) Amendments of 1996.
       Section 1452 of this Act authorizes the Administrator of the U.S. Environmental Protection Agency to
       establish a Drinking Water State Revolving Fund (DWSRF) program to assist public water systems with



                                                       5

                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 1: Summary of Significant Accounting Policies (continued)

       financing the costs of infrastructure needed to achieve or maintain compliance with SDWA requirements,
       to protect public health, and to allow states to carry out prevention programs.

       The DWSRF was capitalized by the U.S. Environmental Protection Agency by a series of grants starting
       in 1997. States are required to provide an additional 20 percent of the federal capitalization grant as
       matching funds. As of June 3 0, 2003, Congress has authorized EPA to award $62,330,900 in
       capitalization grants to the State of Missouri. The state is required to contribute $12,466,180 in matching
       funds.

       The DWSRF is administered by the MDNR under the supervision of the Missouri Safe Drinking Water
       Commission. EIERA issues bonds or notes, secured by SRF funds, to finance qualified projects. The
       program is comprised of five funds within the state, and an agency fund that holds the construction loan
       funds. The state funds are: the Water and Wastewater Loan Fund (fund 0649) that receives federal
       capitalization grant funds and makes payments to the loan reserve fund, the Water and Wastewater Loan
       Revolving Fund (fund 0602) that receives funds as they are released from the loan reserve , the
       Administrative Fee Fund (fund 0568) that receives the loan fees charged to borrowers, the Department of
       Natural Resources Federal Fund (fund 0140) that receives federal capitalization grant funds that fund set-
       aside activities, and the General Revenue Fund (fund 0101) that holds capitalization grant matching funds.
       The Agency Fund accounts for bond proceeds issued by EIERA.

       Program Operations

       In both the CWSRF and the DWSRF programs, Missouri leverages federal and State matching funds by
       issuing revenue bonds to make loans to qualified communities, and using federal grant and State matching
       funds to create reserves for the loans. Interest earned on the reserves subsidizes loan interest rates, and
       enhances the security of the loans, which are pledged to repay bond principal and interest. “Leveraged”
       borrowers, in essence, receive two loans: a market-rate loan funded by the revenue bond proceeds that
       equals project construction costs, and a zero-rate loan funded by capitalization grants and State match to
       fund the reserves. The CWSRF “reserve” loans equal 70 percent of the leveraged project loan (50 percent
       prior to 1993). The DWSRF reserve loans equal 50 percent of the leveraged project loans (33.33 percent
       prior to 2002). Bond proceeds are deposited to an agency fund (primarily the construction loan fund)
       held by the trustee bank. As communities draw on these funds to pay construction costs, an amount
       equaling 70 percent of the draw from the construction loan fund is transferred from MDNR to a reserve
       account established for each borrower. Earnings in the reserve account reduce the borrower’s net interest
       payments on the bonds, resulting in the subsidized, blended interest rate on the project loan.

       The SRFs also make direct loans in certain instances. Direct loans are funded from the Water and
       Wastewater Loan Revolving Fund (WWLRF). Loan proceeds are deposited to an agency fund (the
       construction loan fund) held by the trustee bank. As construction costs are incurred, funds are released
       from the trustee bank to the borrower. The borrower repays the loan by making monthly principal and
       interest payments to the trustee bank. On the debt service due dates, the trustee bank makes the debt
       service payment to the program.

       Basis of Accounting

       The financial statements of the loan funds are presented as enterprise funds. As such, the program is
       accounted for using the flow of economic resources measurement focus and is maintained on the accrual
       method of accounting. Under the accrual method of accounting, revenues are recognized when earned and
       expenses are recorded at the time the liabilities are incurred. The Agency Fund is accounted for using


                                                        6

                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 1: Summary of Significant Accounting Policies (continued)

       accounting principles applicable to t rust and agency funds. All assets and liabilities associated with the
       operations of the program are included on the Statement of Net Assets. The State has elected to follow the
       accounting pronouncements of the Governmental Accounting Standards Board (GASB), as well as
       Statements issued by the Financial Accounting Standard Board on or before November 30, 1989, unless
       the pronouncements conflict with or contradict GASB pronouncements.

       Cash and Cash Equivalents

       All monies of the program are deposited with the Missouri State Treasurer’s Office, which is responsible
       for maintaining these deposits in accordance with State law. The program considers all such deposits to
       be cash. Investment interest earnings on these deposits are received by the program on a daily basis.
       According to State law, the Treasurer is responsible for maintaining the cash balances and investing
       excess cash of the program, as further discussed in Note 2. Consequently, management of the program
       does not have any control over the investment of the excess cash. The Statement of cash flows considers
       all funds deposited with the Treasurer to be cash or cash equivalents, regardless of actual maturities of the
       underlying investments.

       Administrative Fees

       The program charges an administrative fee to borrowers to fund administrative costs of operating the
       program. During the year ended June 30, 2003, $2,330,000 was collected for CWSRF administrative fees
       and $207,156 was collected for DWSRF administrative fees. During the same period, $2,818,000 was
       used for CWSRF administrative expenses. As of June 30, 2003, the cash balance of the administrative
       funds was $10,030,000 and $399,159 for the CWSRF and DWSRF, respectively, with another $24,000
       due to the CWSRF from the loan fund.

       Bonds Payable

       Bonds payable are special limited obligations of EIERA, payable from borrower loan repayments, a
       reserve account established for each borrower (generally equal to 70 percent of the outstanding bond
       principal for CWSRF borrowers and 50 percent for DWSRF borrowers), and a master trust agreement.
       Interest expense is reported on the accrual basis. The effects of bond discounts, premiums, and issuance
       costs are not reported by the program since they are passed thru to the borrowers and represent the
       costs/benefits of the borrowers.

       Borrowers make monthly payments to debt service repayment accounts, which also earn interest that
       further subsidizes the interest rates. On bond payment dates, transfers are made from the repayment
       accounts to the debt servi ce funds to make the semi-annual interest payments and annual bond principal
       payments. Interest earnings on the construction loan accounts and reserve accounts are also transferred to
       the debt service funds on the bond payment dates. These interest earnings reduce the amount that is
       needed from the repayment accounts.

       As outstanding bond principal is reduced, an amount is released from the reserve account so that the
       reserve security equals 70 percent (CWSRF) or 50 percent (DWSRF) of the outstanding loan balance.

       Amounts released flow to the master trust unallocated fund, and, if there are no loan defaults, the amount
       is transferred to the Water and Wastewater Loan Revolving Fund to be used to make new loans.




                                                        7

                                      State of Missouri
                    Department of Natural Resources State Revolving Funds
                                Notes to Financial Statements

NOTE 1: Summary of Significant Accounti ng Policies (continued)

        State match bonds that are immediately and directly deposited inside the CWSRF, and that will be repaid
        using interest earnings of the WWLRF, are recorded as bonds payable. The first State match bonds that
        met this criteria were sold in August 2002. State match bonds sold prior to August 2002 are not repaid
        using CWSRF interest earnings and are recorded as contributed capital when the State funds are
        transferred into the Water and Wastewater Loan Fund.

        Capitalization Grants

        In accordance with generally accepted accounting principles, funds received from the EPA and the State
        for the capitalization of the SRFs are recorded as non-operating revenues.


NOTE 2: Cash and Cash Equivalents

        All cash in the enterprise funds, excluding that restricted for arbitrage rebate payments, is deposited with
        the State Treasurer, who is responsible for maintaining and investing the pooled cash balances in
        accordance with State laws. The Treasurer is required to maintain a mix of investments in order to allow
        funds to be withdrawn at any time to meet normal operating needs. The program’s share of the investment
        income from the local government investment pool is based on the average daily balance for the period
        and is credited to the program periodically throughout the month. Details of the investments can be
        obtained from the State Treasurer’s Office. The restricted rebate funds are held in an account with a
        Trustee Bank. If the rebate account is insufficient to meet the arbitrage requirements, each borrower, not
        the CWSRF, is to provide its allocable portion of the deficit.

        All cash and investments in the local investment pool are stated at cost, which approximates fair market
        value. Investments in local government investment pools are not categorized because they are not
        evidenced by securities that exist in physical or book entry form.

                                                                                          Market
                                                                       Cost               Value
        Not subject to categorization (in thousands):

        CWSRF:
        Investment pool                                            $ 276,117              $ 276,117
        Rebate Accounts with Trustee                                   4,749                  4,749

        DWSRF:
        Investment Pool                                            $    9,881             $    9,881
        Rebate Accounts with Trustee                                     397                     397

NOTE 3: Loans Receivable

        Loans receivable consist of three types: leveraged loans, reserve loans, and direct loans. Leveraged loans
        are funded by the sale of revenue bonds, the proceeds of which are deposited to a construction loan fund.
        Borrowers are loaned funds from the construction loan fund to pay for construction costs incurred. The
        terms of the loans mirror the terms of the bonds in order to provide the funds to pay bond interest and
        principal according to the terms of the bonds. As funds are released from the construction loan fund to the
        borrower, an amount equal to 70 percent (CWSRF) or 50 percent (DWSRF) of the construction costs is
        deposited to the loan reserve fund to provide an interest subsidy to the borrower and to provide security


                                                        8

                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 3: Loans Receivable (continued)

       for bond principal and interest. In general, the loans and bonds require payment of interest semi-annually
       and principal annually. It is the opinion of management that all loans are fully collectible, so no provision
       for uncollectible amounts is included in these financial statements.

       Loans receivable activity during the year ended June 30, 2003 is summarized as follows (in thousands):

       CWSRF:

                                         Loan Amount            Loan Balance                                        Loan Balance
        Loan Type                         Authorized            June 30, 2002      Disbursements       Repayments   June 30, 2003
        Direct Loans                    $        4,650          $           -      $       4,650       $    1,000   $       3,650
        Leveraged Loans                        140,945                99,905              38,150            2,230         135,825
        Reserve Loans                               n/a               21,948              22,575              735          43,788
           Total                        $      145,595          $    121,853       $      65,375       $    3,965   $     183,263



       DWSRF:

                                          Loan Amount           Loan Balance                                        Loan Balance
        Loan Type                          Authorized           June 30, 2002       Disbursements      Repayments   June 30, 2003
        Direct Loans                     $        4,650         $           -       $       4,650       $ 1,000     $       3,650
        Leveraged Loans                         140,945                99,905              38,150          2,230          135,825
        Reserve Loans                                n/a               21,948              22,575            735           43,788
           Total                         $      145,595         $     121,853       $      65,375       $ 3,965     $     183,263



       Loan Maturities

       Loans mature at various intervals through 2025. The scheduled principal payments on leveraged loans
       and direct loans in subsequent years are as follows (in thousands):

       CWSRF:

                 Year Ending June 30,            Principal
                     Interest                Total
                                   2004        $      31,712
            $           39,992        $       71,704
                                   2005               35,877
                        38,677                74,554
                                   2006               37,419
                        37,136                74,555
                                   2007               37,213
                        34,918                72,131
                                   2008               40,934
                        33,162                74,096
                             2009-2013               221,664
                       134,240               355,904
                             2014-2018               209,900
                        72,255               282,155
                             2019-2023               142,238
                        22,206               164,444
                             2024-2026                15,653
                            860               16,513
                   CWSRF Total                 $     772,610
            $          413,446        $    1,186,056




                                                           9

                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 3: Loans Receivable (continued)

       DWSRF:
                Year Ending June 30,         Principal             Interest             Total
                                  2004     $        3,385      $         6,655     $       10,040
                                  2005              4,667                6,415             11,082
                                  2006              4,946                6,245             11,191
                                  2007              5,075                6,057             11,132
                                  2008              5,339                5,848             11,187
                            2009-2013             32,033                25,191             57,224
                            2014-2018             47,243                14,963             62,206
                            2019-2023             34,258                 3,910             38,168
                                  2024              2,529                   35               2,564
                  DWSRF Total              $     139,475       $        75,319     $      214,794


       Loans to Major Local Agencies

       As of June 30, 2003, the CWSRF program had loans outstanding to ten agencies that, in the aggregate,
       exceeded $15,000,000. The DWSRF program made loans to four communities that exceeded $8,000,000.
       The outstanding balances of these CWSRF and DWSRF loans represent approximately 57 percent and 58
       percent , respectively, of the total loans receivable for each program, as follows (in thousands):

       CWSRF:

                                                                                           Percent of
                                                                                             Total
        Borrower                               Loan Authorized      Loan Outstanding      Outstanding

        Kansas City
                            $    140,295        $        119,645          15%
        Little Blue Valley Sewer District
           100,205                  99,495          13%
        Springfield
                                  88,530                  71,526          9%
        Duckett Creek
                                38,673                  32,190          4%
        Cape Girardeau
                               36,353                  31,433          4%
        Rock Creek Sewer District
                    25,555                  24,390          3%
        Jefferson City
                               24,875                  24,875          3%
        Branson
                                      22,950                  17,540          2%
        Joplin
                                       20,000                  15,326          2%
        St. Joseph
                                   16,823                  13,094          2%
            CWSRF Total                         $ 514,259.00        $        449,514          58%




                                                    10
                                      State of Missouri
                    Department of Natural Resources State Revolving Funds
                                Notes to Financial Statements

NOTE 3: Loans Receivable (continued)


DWSRF:
                                                                                                    Percent of
                                                                                                      Total
         Borrower                                  Loan Authorized         Loan Outstanding        Outstanding


         City of Osage Beach                        $        30,660        $         30,660             22%
         City of Cape Girardeau                              25,495                  22,850             16%
         Jefferson County Water Authority                    18,665                  18,665             13%
         City of Perryville                                   8,860                   8,225             6%
           DWSRF Total                              $        83,680        $         80,400             58%

NOTE 4: Bonds Payable

       The SRF programs issue revenue bonds to finance qualified projects, and uses federal capitalization grants
       and State matching funds to provide reserves for the bonds. The bonds are issued by EIERA and proceeds
       from the sales of bonds are deposited into the borrowers’ accounts with the trustee banks. Bonds payable
       and loans receivable are recorded in the enterprise fund, and the cash and project costs payable are
       recorded in the Agency Fund. Interest rates on these bonds are determined by the current market rate. As
       borrowers incur costs, funds are transferred from the construction loan fund to the borrower.

       Concurrent with disbursements to borrower, the program draws federal and State matching funds to
       maintain the proper loan reserve balance. Interest earned on the construction loan fund and the reserve
       fund subsidizes the interest on the borrower’s loan. As borrowers repay the loans, the interest and
       principal serve as the source of funds to pay bond principal and interest.

       As of June 30, 2003, 35 separate bond issues totaling $1,023,148,000 had been issued for the CWSRF and
       10 bond issues totaling $140,945,000 had been issued for the DWSRF. The bonds mature at various
       intervals through January 2025.

       As of June 30, 2003, the State had issued state match general obligation bonds Series A 2002 in the
       amount of $15,000,000. The bonds mature at various intervals through August 2027, with interest of
       3.0% to 5.25% due semi-annually through 2027. These bonds were immediately and directly deposited
       inside the SRF and will be repaid using interest earnings on the WWRLF.

       Bond activity during the year ended June 30, 2003 is summarized as follows:

       CWSRF:
                                                               6/30/02                                          6/30/03
                                                              Balance      Repayments      New Issues          Balance
             Program Bonds                                   $ 593,132      $ (26,243)     $ 193,770          $ 760,659
             State Match Bonds                                      -             -           15,000              15,000
             Less: amount deferred on refundings                 (2,895)          475                             (2,420)
             Total                                           $ 590,237      $ (25,768)     $ 208,770          $ 773,239




                                                        11
                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 4: Bonds Payable (continued)

       DWSRF:
                                                          6/30/02                                                   6/30/03
                                                          Balance         Repayments          New Issues            Balance

          Program Bonds                               $      99,905       $     (2,230)       $       38,150    $      135,825



       The required annual payments for all revenue bonds for each of the next five fiscal years, and in five -year
       increments thereafter until maturity are as follows (in thousands):

       CWSRF:
               Year Ending June 30
                Principal                  Interest                    Total
                                    2004      $
         30,787       $            40,399         $           71,186
                                    2005
                35,106                    39,088                     74,194
                                    2006
                36,010                    37,559                     73,569
                                    2007
                36,588                    35,352                     71,940
                                    2008
                40,353                    33,599                     73,952
                               2009-2013
               220,283                   136,428                    356,711
                               2014-2018
               210,446                    74,181                    284,627
                               2019-2023
               143,773                    23,613                    167,386
                               2024-2026
                19,893                     1,429                     21,322
                  Total                       $         773,239       $           421,648         $        1,194,887



       DWSRF:

                 Year Ending June 30               Principal
                  Interest                    Total
                                  2004         $          3,385
      $               6,585           $        9,970
                                  2005                    4,525
                      6,324                   10,849
                                  2006                    4,800
                      6,157                   10,957
                                  2007                    4,925
                      5,974                   10,899
                                  2008                    5,185
                      5,767                   10,952
                            2009-2013                    31,205                      24,849                   56,054
                            2014-2018                    46,305                      14,730                   61,035
                            2019-2023                    33,195                       3,801                   36,996
                            2024-2028                     2,300                          29                    2,329
                                               $        135,825       $              74,216           $      210,041

NOTE 5: Capital Contributions

       The CWSRF program is capitalized by grants from EPA, authorized by Title VI of the Act, and matching
       funds from the State of Missouri. As of June 30, 2003, EPA has awarded capitalization grants totaling
       $514,237,000 o f which $491,007,000 has been drawn. The following summarizes the capitalization
       grants awarded, amounts drawn on each grant, and balances available (in thousands):



                                                       12

                                     State of Missouri
                   Department of Natural Resources State Revolving Funds
                               Notes to Financial Statements

NOTE 5: Capital Contributions (continued)

       CWSRF:

                                                                                                                   Available as
            Year of           Grant           Total Draws                                     Total Draws          of June 30,
           Allocation        Amount          June 30, 2002          2003 Draws               June 30, 2003            2003
           1988 to 1994       $250,695            $250,695                                          $250,695
                   1995         34,136               34,136                                            34,136
                   1996         56,212               56,212                                            56,212
                   1997         17,277               17,277                                            17,277
                   1998         37,329               37,329                                            37,329
                   1999         37,332               37,093         $        239.00                    37,332
                   2000         42,206                    0                  42,065                    42,065      $         141
                   2001         39,050                    0                  15,961                    15,961             23,089
                            $ 514,237         $     432,742         $        58,265        $         491,007       $      23,230


       The DWSRF program is capitalized by grants from the EPA as authorized by Section 1452 of the SDWA,
       and matching funds from the State of Missouri. As of June 30, 2003, EPA has awarded capitalization
       grants totaling $62,330,900, of which $39,677,699 has been drawn. The following schedule summarizes
       the capitalization grants awarded, amounts drawn on each grant, and balances available (in thousands):

       DWSRF:

            Year of 	                            Total Draws                                   Total Draws        Available as of
           Allocation        Grant Amount       June 30, 2002
             2003 Draws         June 30, 2003       June 30, 2003
             1997          $        21,858    $          16,820
        $	         3,170      $      19,990       $       1,868
             1998                    9,575                4,136
                   4,936              9,072                  503
             1999                   10,035                  769
                   3,302              4,071               5,964
             2000                   10,390                     ­
                  5,943              5,943               4,447
             2001                   10,473                     ­
                    602                602               9,871
                           $        62,331    $          21,725         $         17,953      $      39,678       $      22,653



        As of June 30, 2003, CWSRF State matching contributions were as follows:

                                                                As of                                              As of
                                                            June 30, 2002         2003 Contribution            June 30, 2003
         State Matching Contribution:

         State Appropriations                           $               86,617    $            10,524                  $97,141

         State Match Bonds

         (deposited into CWSRF)                                            -                    1,720                    1,720

         Total State Match                              $               86,617    $            12,244      $            98,861





                                                      13

                                      State of Missouri
                    Department of Natural Resources State Revolving Funds
                                Notes to Financial Statements

NOTE 5: Capital Contributions (continued)

       As of June 30, 2003, DWSRF State matching contributions were as follows:

                                                                                          2003
                                                                 June 30, 2002         Contribution            June 30, 2003
         State Matching Contribution                            $         6,201        $      6,321           $       12,522

NOTE 6: Set-Aside Costs

       a)       Loan Program Administration s - 4% Set-Aside

                The costs were incurred for program management, including paying salaries, paying associated
                operational expenses, and providing technical assistance to potential loan applicants.

       b)       State Program Management - 10% Set-Aside

                The costs were incurred for permitting, enforcement, operator training and certification,
                emergency preparedness, information management systems, capacity development, source water
                protection, and consumer reporting.

       c)       Technical Assistance for Small Systems - 2% Set-Aside

                The costs were incurred for assistance with: (1) complying with crosscutting requirements of the
                program and state requirements, (2) locating and obtaining sources of additional funding, (3)
                complying with the SDWA, and (4) developing technical, managerial, and financial capacity.

       d)       Local Assistance - 15% Set-Aside

                The costs were incurred for a separate source water protection loan program and capacity
                development.



       Total set-aside costs charged to the Program are as follows (in thousands):

         Year of                              Technical               State Program          Source Water
        Allotment      Administrative         Assistance               Management             Protection         Total Set-asides
       FY 1997         $          594     $           483         $            1,386     $            1,467      $        3,930
       FY 1998                    348                 180                        867                      0               1,395
       FY 1999                    130                 180                      1,123                      0               1,433
       FY 2000                    263                 192                      1,089                      0               1,544
       FY 2001                      9                  14                         89                      0                 112
         Total         $        1,344     $         1,049         $            4,554     $            1,467      $        8,414




                                                           14
                                      State of Missouri
                    Department of Natural Resources State Revolving Funds
                                Notes to Financial Statements

NOTE 7: Contingencies and Subsequent Events

       Contingencies

       The program is exposed to various risks of loss related to torts, thefts of assets, errors or omissions,
       injuries to State employees while performing program business, or acts of God.

       The program maintains insurance for all risks of loss, which is included in the indirect costs allocated to
       the program. There have not been any claims against the program since its inception in 1989, and no
       contingencies came to our attention during our audit that require disclosure or accrual under Statement of
       Financial Accounting Standards No. 5.

       Subsequent Events

       The Missouri CWSRF was awarded a capitalization grant by EPA in the amount of $36,957 in September,
       2003. The CWSRF financed approximately $16,600 in additional loans thru the issuance of debt in
       December, 2003.




                                                        15

 Independent Auditor's Report on the
Internal Control Structure Based on an
   Audit of the Financial Statements
    Performed In Accordance with
   Government Auditing Standards
                                  ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C
                                                                                              OFFICE OF
                                                                                         INSPECTOR GENERAL



To: Steven Mahfood, Director
    Missouri Department of Natural Resources

We have audited the financial statements of the Missouri Department of Natural Resources State Revolving Funds
(the Funds) as of and for the year ended June 30, 2003, and have issued our report thereon dated February 18, 2004.

We conducted our audit in accordance with generally accepted auditing standards and Government Auditing
Standards issued by the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Funds is responsible for establishing and maintaining an internal control structure. In
fulfilling this responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of an internal control structure are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded against loss from
unauthorized use or disposition and that transactions are executed in accordance with management's authorization
and recorded properly to permit the preparation of financial statements in accordance with generally accepted
accounting principles. Because of inherent limitations in any internal control structure, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Funds for the year ended June 30, 2003, we
obtained an understanding of the internal control structure. With respect to the internal control structure, we
obtained an understanding of the design of relevant policies and procedures and whether they have been placed in
operation, and we assessed control risk in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial statements and not to provide an opinion on the internal control structure.
Accordingly, we do not express such an opinion.

Our consideration of the internal control structure would not necessarily disclose all matters in the internal control
structure that might be material weaknesses under standards established by the American Institute of Certified
Public Accountants. A material weakness is a condition in which the design or operation of one or mo re of the
specific internal control elements does not reduce to a relatively low level the risk that errors and irregularities in
amounts that would be material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. We noted the
following matters involving the internal control structure and its operations, detailed in the Internal Control
Weaknesses and Recommendations section of this report, that we consider to be material weaknesses.

The state accounting system does not adequately account for Fund’s activity, as required by the Clean Water Act
and the Safe Drinking Water Act. Further, the subsidiary systems used to account for Fund activity, which consist
primarily of a variety of spreadsheets, were not adequate to provide for proper control and accountability over fund
activity, did not provide assurance that all activity was accounted for, and were not reconciled to the general ledger.
As a result, the state has not been able to provide accurate, timely and meaningful financial information to
management. These matters are considered to be material weaknesses as defined above.



                                                          17

This report is intended for the information of management of the Fund and the United States Environmental
Protection Agency. However, this report is a matter of public record and distribution is not limited.



Office of Inspector General
February 18, 2004




                                                      18

                              Internal Control Weaknesses and Recommendations

State Accounting System not Adequate for SRF Program

The Missouri state accounting system, known as SAMII, does not properly account for all transactions of the Funds
as required by the Clean Water Act and the Safe Drinking Water Act. Missouri established the Funds as special
revenue funds using the cash basis of accounting. The cash basis of accounting assumes that all transactions are
either revenues or expenses. In the case of the Funds, SAMII only accounts for the cash balance of the SRF, and
does not account for loans receivable, construction loan funds, revenue bonds, bond reserves, EPA capitalization
grants, and other accounts. For example, total loans receivable, excluding reserve loans, at June 30, 2003 were
approximately $773 million for t he Clean Water State Revolving Fund (CWSRF) and $139 million for the Drinking
Water State Revolving Fund (DWSRF), yet SAMII does not include an account for loans receivable. Additionally,
at June 30, 2003, the balance of CWSRF revenue bonds (excludes state match bonds) was over $758 million, and
the DWSRF revenue bonds was over $132 million, but bond outstanding were not recorded in SAMII. As a result,
many of the inherent controls intended to record these transactions and safeguard the activity of such large accounts
were nonexistent.

The Missouri Department of Natural Resources (MDNR) has recognized the shortcomings of the accounting system
and is in the process of developing and implementing a new accounting/management system designed to address
them.

MDNR Response:

      On December 2, 2002, the department contracted for the analysis, design, development, implementation, and
      training of a SRF Automated Information System (AIS).

      Testing of the General Ledger was completed in December of 2003 and work co ntinues to verify that the new
      SRF AIS has the ability to generate complete and accurate CW and DW Trial Balance, General Ledger, and
      supporting schedules. The SRF AIS receives data loads from the trustee bank and interfaces with the State
      Accounting System (SAM II) which allows us to account for cash balances as well as loan receivables,
      construction loan funds, revenue bonds (including bonds outstanding), bond reserves, EPA capitalization
      grants, and many other accounts.

      We believe the new SRF AIS satisfies this weakness. The new system allows us to more efficiently manage the
      SRF program; and adds effective internal controls. We have begun enhancements of the SRF AIS, which will
      add additional internal controls and other features to the system.

      As an interim step the department contracted for account balance compilation to prepare the 2003 annual
      report and to provide accurate beginning balances for the new system.


Subsidiary Systems Do Not Provide Adequate Controls Over CWSRF Balance and Activities

Accounting systems provide for the control, accountability and assurance that funds are only used for authorized
purposes. SAMII does not adequately record and report the separate CWSRF and DWSRF, State Stormwater and
37G programs balances. Furthermore, CWSRF cash in Fund 602 (repayments) is commingled with cash from the
DWSRF, State stormwater and 37G programs within the investment account maintained by the State Treasurer’s
Office. DNR developed a system of subsidiary records by using spreadsheets to account for transactions and
account balances that SAMII was unable to record. However, the subsidiary systems alone were not adequate to
control or account for the activity of the SRFs. This lack of control is evidence by the use of CWSRF funds to
provide initial disbursements on DWSRF loans and disbursements for the State’s stormwater program. As of June
30, 2002, the CWSRF had disbursed $189,790 in funds for DWSRF loans. This amount was not adjusted for on the
CWSRF records, although the reimbursement from EPA was received in July, 2003. Also, as of June 30, 2003, the
                                                        19

CWSRF had disbursed $42,537 for the State’s stormwater program. This was noted only by a negative cash balance
in the stormwater program. We were not provided any evidence (memos, authorizing signatures, etc.) that
management was aware of or approved of these uses of the CWSRF funds.

The same situation exists for the CWSRF and DWSRF administration fees, which are considered program income
under EPA regulations. DNR’s Fund 568 includes activities and balances of the State’s permit fees, rural water and
sewer 37G programs, MDNR’s stormwater program, and the restitution and settlement funds, in addition to the
DWSRF and CWSRF funds. The cash balances of the CWSRF and DWSRF programs and these other programs
are in the same investment account with the State Treasure’s Office and are accounted for in the same cash account
of Fund 568. A spreadsheet is maintained to track the different activity of each of the programs. Adequate controls
are not in place to insure that funds are not transferred between the various programs.


MDNR Response:

      New accounts at the Treasurers Office have been created to separate the state program balances that have
      previously resided in Fund 602, the CW and DW SRF repayment account. However, both CW SRF and DW
      SRF balances continue to be tracked and monitored in the same account. We will evaluate whether
      additional accounts will allow us better ability to track and if so we will request from the proper authorities.
      At present, the new SRF AIS separates all transactions between Clean Water and Drinking Water. Principal
      and interest received from loan recipients are separated by project, and therefore, recorded as either CW or
      DW with regard to al transactions related to that project.

      The process is similar with the administrative account, fund 568. The SRF AIS pulls in those transactions
      from SAM II that are coded for Drinking Water and Clean Water. Staff reconcile cash balances to total ca sh
      balances in SAM II and to balances in the new system.

      The SRF AIS is designed with internal controls and separation of duties. We are working on various levels of
      management review procedures and reporting.


Management Unable to Access Payroll/Time Charges in Regional Offices:

The Public Drinking Water Program Management, which is the central office for the Program, is unable to review
time charges of regional office employees charged to the DWSRF set-aside activities. The payroll system used by
the State does not allow anyone other than regional offices to access payroll or time records. As a result, Program
Management only knows about payroll charges after they are incurred. Timely monitoring of the time charging by
the Program is essential internal control for the adequate and accurate time charging to the set-aside activities.

MDNR Response:

      Work requested of regional offices is coordinated annually in the workplan negotiation process. Work units
      and corresponding time requirements are part of the planning process. Access to regional offices data was
      granted immediately upon request by changes to the SAM II security settings.


Recommendations:

We recommend that management of the Missouri DNR Clean Water State Revolving Fund:

    1. 	 Continue with the full development and implementation of the accounting/management system dedicated to
         the SRF programs that will enable recording and reporting of all SRF transactions and balances with
         adequate separation and controls over the SRF programs.
                                                        20

    MDNR Response:

    SRF Automated Information System (AIS) development, implementation, and training have been completed.
    Transactions for 2003 are being posted with the goal of a completed July 2003 trial balance, general
    ledger and supporting schedules before the end of April 2004, and an accurate complete annual report at
    the end of the fiscal year.

    We believe the new AIS satisfies the OIG finding and supports the recommendation stated in the audit
    report and insures more efficient management of the SRF program.

2.	 Open separate cash accounts with the Treasurer’s Office for each of the CWSRF, DWSRF and other state
    programs. Reconcile subsidiary systems, or the new accounting/management system, to the general ledger
    and the separate cash accounts with the State Treasurer’s Office on a regular basis to ensure that general
    ledger balances are fully supported.

    MDNR Response:

    We are currently drafting a reconciliation plan that will be used in the monthly reconciliation of cash
    accounts to the general ledger. We will evaluate whether additional accounts will allow us better ability to
    track and if so we will request from the proper authorities.

3.	 Develop and implement the appropriate management approval procedures to insure that CWSRF and
    DWSRF cash is used only for eligible activities.

    MDNR Response:

    The SRF AIS is designed with internal controls and separation of duties to prevent in appropriate 

    transactions without the required security approvals. 


4.	 Provide the Program Management with tools to oversight the time charges of regional employees on a
    regular basis to the set-aside activities.

    MDNR Response:

    The department will develop tools for Program Management to oversee the time charges of regional
    employees on a regular basis to the set-aside activities.




                                                    21

Independent Auditor's Report on Compliance
   with the Requirements Applicable to the
    Environmental Protection Agency’s
       State Revolving Fund Programs
             in Accordance with
       Government Auditing Standards
                                ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C
                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL




To: To: Steven Mahfood, Director

   Missouri Department of Natural Resources


We have audited the financial statements of the Missouri Department of Natural Resources State Revolving Funds
(the Funds) as of and for the year ended June 30, 2003 and have issued our report thereon dated February 18, 2004

We have also audited the Fund's compliance with requirements governing:

        •        Allowability for specific activities;
        •        Allowable costs/cost principles;
        •        Cash management;
        •        State matching;
        •        Period of availability of funds and binding commitments;
        •        Program income;
        •        Reporting;
        •        Subrecipient monitoring, and;
        •        Special tests and provisions

that are applicable to its major federal financial assistance program for the year ended June 30, 2003. The
management of the Funds is responsible for the Funds’ compliance wi th those requirements. Our responsibility is to
express an opinion on those requirements based on our audit.

We conducted our audit of compliance with those requirements in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller General of the United States, and the
Environmental Protection Agency State Revolving Fund Audit Guide. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether material noncompliance with the requirements
referred to above occurred. An audit includes examining, on a test basis, evidence about the Fund's compliance with
those requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, except for the matters discussed in the findings and recommendations section, the Missouri
Department of Natural Resources State Revolving Funds complied, in all material respects, with the requirements
governing types of service and types of costs allowed or unallowed; matching, level of effort or earmarking
requirements; special reporting requirements; special tests and provisions; and claims for advances and
reimbursements that are applicable to its major federal financial assistance program for the year ended June 30,
2003.

This report is intended for the information of management of the Fund and the United States Environmental 

Protection Agency. However, this report is a matter of public record and its distribution is not limited. 



Office of Inspector General

February 18, 2004





                                                        23

                               Compliance Findings and Recommendations

Accounting System

As discussed in the preceding Independent Auditor's Report on the Internal Control Structure Based on an Audit of
the Financial Statements Performed In Accordance with Government Auditing Standards, Missouri Department of
Natural Resources State Revolving Funds did not comply with 40 CFR 35.3135(h) that requires the state to establish
fiscal controls and accounting procedures that are sufficient to assure proper accounting of SRF activity during the
year and year-end balances. The state is also required to use accounting, audit and fiscal procedures conforming to
generally accepted accounting principles as established by the Governmental Accounting Standards Board.

MDNR is in the process of developing and implementing an accounting/management system that they believe bring
them in compliance with these requirements.

MDNR Response:

     On December 02, 2002 the department contracted for the analysis, design, development, implementation, and
     training of a SRF Automated Information System (AIS) of the Phase I. All of these activities have been
     completed. We believe the SRF AIS enables us to establish better fiscal controls and additional accounting
     procedures that are sufficient to assure proper accounting of SRF activity. In addition, and with the help of
     the system, as well as newly defined internal control procedures the SRF uses accounting, audit and fiscal
     procedures conforming to generally accepted accounting principles as established by the Governmental
     Accounting Standards Board.


Allowable Costs and Eligible Activities

Hancock Payments:

MDNR transferred $6,627 Clean Water State Revolving Fund (CWSRF) funds and $1,364 of CWSRF
administrative funds to the state’s general revenue fund to help cover the State’s obligations under Article X of the
Missouri State Constitution in violation of the Clean Water Act (the Act). Article X, also known as the “Hancock
Amendment,” established a limitation on taxes that may be imposed on the taxpayers by limiting taxes to the amount
of revenues received by the state. Revenues that exceed the limitation are required to be returned to the taxpayers.
However, Title VI, Section 603 of the Act identifies the types of projects that can be funded by the CWSRF, and
also specifies what are allowable uses of CWSRF funds. Transferring funds from the CWSRF to return to the
state’s taxpayers is not an allowable use of CWSRF funds.

Management is aware that transferring CWSRF funds to the general fund violates the Act, but not transferring the
calculated amount violates the Missouri Constitution. Article X specifies that Federal funds are excluded from the
calculation of the amounts to be refunded, but state officials charged with implementing Article X have told
management that the CWSRF funds are state funds, not Federal funds.

In an effort to avoid noncompliance, MDNR intends to reimburse amounts withdrawn for Article X from the
CWSRF, from available non-CWSRF funds, on the same day as the funds withdrawn. The $56 withdrawn from
Fund 649 and the $1,364 withdrawn from Fund 568 was reimbursed on the same day they were withdrawn. The
$6,571 withdrawn from Fund 602 was reimbursed, with interest, eight days after the withdrawal. Replacing the
Article X funds on the same day the funds are transferred should only be viewed as an interim measure as such a
practice still results in a violation of Title VI, Section 603 of the Act. As stated in our recommendations, the long-
term solution is to exclude the CWSRF from the requirements of Article X.


                                                      24

MDNR Response:

       The department did not transfer SRF funds to the state’s general revenue funds. The transfers were made by
       Missouri’s Office of Administration. The Office of Administration replaced the transfer out with a same -day
       transfer in to avoid non compliance. Replacing Article X funds on the same day the funds are transferred is
       only an interim measure. The department continues to pursue a long-term solution. Specific legislative
       language for Hancock exemption of SRF was introduced in the current legislative session. The Legislature
       has until May 14, 2004 to pass this language into law. Should that not occur, the department will seek
       passage again next year.


District Office Lease Payments:

The CWSRF was overcharged $111,717 for lease expenses at MDNR's district offices during the year ended June
30, 2003. Based on the allocations that should have been applied to lease expense, the CWSRF should have been
charged $19,942 instead of the $131,659 charged during the year.

MDNR Response:

       We agree that the SRF was overcharged. We will make adjustments to repay these overcharges as soon as
       possible.


Transfer of Funds

Section 302 of the Safe Drinking Water Act Amendments of 1 996 (SDWA) allowed for the Governor of a State to
transfer up to 33% of the capitalization grants made pursuant to Section 1452 of the SDWA from one SRF program
to another. EPA regulations allow for the Governor or a State official acting pursuant to authorization from the
Governor to make this transfer. MDNR made a $10,475,000 transfer of funds from the CWSRF to the DWSRF in
September, 2001. This transfer was approved by EPA, Region 7 pending the State’s Attorney General letter
certifying that state l aw allows for the transfer, which was subsequently provided to EPA. However, we could not
obtain evidence that the Governor, or a State official acting pursuant to authorization from the Governor, actually
approved of the transfer.

DNR also transferred CWSRF funds to the DWSRF to provide the initial disbursements for DWSRF loans. These
funds were to be transferred back to the CWSRF upon receipt of the related EPA draw. These transfers are not
allowed under the Clean Water Act. Furthermore, MDNR did not have appropriate controls in place to insure that
the funds were repaid when the EPA draw was received.

MDNR Response:

       In the past the department secured certification from the Missouri Attorney General prior to a transfer. The
       transfer was approved by the Governor appointed Safe Drinking Water and the Clean Water Commissions
       in a public meeting. We realize this is not the authorization the OIG recommends. Therefore, the
       department will establish appropriated management approval procedures to insure the CW SRF cash is used
       only for eligible activities.

       Transfers between CW SRF and the DW SRF programs will not occur in the future without appropriate
       approvals and controls. The SRF AIS is designed with internal controls and separation of duties to prevent
       in appropriate transactions without the required security approvals. All security levels will be activated
       upon implementation of the Business Process Redesign document. The department is currently seeking
       delegation of authority from the Governor for the transfer of SRF funds. Prior to approving any transfer of
       funds between the two programs, the finance center would secure permission from the appropriate authority,
       the department director.

                                                     25

Workplans

The set-aside workplans required for set-asides of the DWSRF program do not comply with the requirements of 40
CFR 35.3540(c)(3). Specifically, the workplans do not include the following four of the six required elements:

(1)	 The goals and objectives, outputs, and deliverables for each set-aside activity;
(2) 	 The schedule for completing activities under each set-aside activity;
(3) 	 Identification and responsibilities of the agencies involved in implementing each set-aside activity, including
      activities proposed to be conducted by a third party;
(4)	 Description of the evaluation process used to assess the success of work funded under each activity.

MDNR Response:

      The Drinking Water set-aside workplans were drafted based on guidance from EPA Region-VII. During
      their most recent DW Annual Review, EPA explained that the department was meeting the bare minimum
      standards requiring set-aside workplans and suggested we do more. The department agreed to expand on
      workplan requirements for the FFY 2003 DW Capitalization Grant.


Recommendations:

We recommend that SRF management:

1.	 Take the necessary steps to exclude the SRF and related funds, including the administrative fee fund, from
    future Article X calculations.

    MDNR Response:

      The Office of Administration has agreed to the current practice of replacing Title X transfers immediately
      with General Revenue until a permanent solution is attained. The department continues to pursue a long-
      term solution. Specific legislative language for Hancock exemption of SRF was introduced in the current
      legislative session. The Legislature has until May 14, 2004 to pass this language into law. Should that not
      occur, the department will seek passage again next year.

2.	 Ensure that appropriate authorizations are obtained from the Governor or a State official acting pursuant to
    authorization from the Governor before transfers are made from one SRF to another. Absent any authorization
    for the transfers already made, the funds should be returned to the CWSRF.

    MDNR Response:

      In the past the department secured certification from the Missouri Attorney General prior to a transfer. The
      transfer was approved by the Governor appointed Safe Drinking Water and the Clean Water Commissions
      in a public meeting. We realize this is not the authorization the OIG recommends. Therefore, the
      department will establish appropriated management approval procedures to insure the CW SRF cash is used
      only for eligible activities.

      Transfers between CW SRF and the DW SRF programs will not occur in the future without appropriate
      approvals and controls. The SRF AIS is designed with internal controls and separation of duties to prevent
      in appropriate transactions without the required security approvals. All security levels will be activated
      upon implementation of the Business Process Redesign document. The department is currently seeking
      delegation of authority from the Governor for the transfer of SRF funds. Prior to approving any transfer of
      funds between the two programs, the finance center would secure permission from the appropriate authority,
      the department director.

3.	 Refund $111,717 for overcharged lease expenses to the CWSRF account and the procedures need to be
    changed to insure the proper allocation is charged.
                                                    26

    MDNR Response:

      We agree that the SRF was overcharged. We will make adjustments to repay these overcharges as soon as
      possible.

4.	 SRF management comply with 40 CFR 35.3540(c)(3) in preparation of workplans by including all required
    elements in order to increase the usability of the workplans for information and management purposes.

    MDNR Response:

      The Drinking Water set-aside workplans were drafted based on guidance from EPA Region-VII. During
      their most recent DW Annual Review, EPA explained that the department was meeting the bare minimum
      standards requiring set-aside workplans and suggested we do more. The department agreed to expand on
      workplan requirements for the FFY 2003 DW Capitalization Grant.




                                                 27

Supplemental Information
                                                                   State of Missouri
                                                            Clean Water State Revolving Fund
                                                                Combining Balance Sheet
                                                                     June 30, 2003
                                                                     (in thousands)

                                                                        Administrative Fee        Total Enterprise
Assets:                                              Loan Fund               Fund                      Fund               Agency Fund             Totals

Current Assets:
Cash and cash equivalents                       $       276,116,952      $      10,030,517    $        286,147,469    $      254,551,267   $      540,698,736
Current Receivables:                                                                                                                                      0.00
 Loan interest                                        23,889,843.76                                  23,889,843.76                               23,889,843.76
 Investment interest                                     821,471.51                                     821,471.51            443,044.38          1,264,515.89
 Administration fees                                                           1,199,777.36           1,199,777.36                                1,199,777.36
 Due from other funds                                    264,256.12               23,840.35             288,096.47                                  288,096.47
 Due from trustee                                        147,412.81                                     147,412.81                                  147,412.81
 Other                                                   269,567.05                   0.00              269,567.05                  0.00            269,567.05
 Current portion of loans receivable                  51,954,853.77                                  51,954,853.77                               51,954,853.77
Total current assets                                 353,464,357.19           11,254,134.31         364,718,491.50        254,994,311.14        619,712,802.64

Restricted assets - cash and cash equivalents          4,749,248.58                                    4,749,248.58                               4,749,248.58

Non-current assets:
Loans receivable:
 Leveraged loans                                      758,238,977.80                                 758,238,977.80                              758,238,977.80
 Reserve loans                                        352,986,524.09                                 352,986,524.09                              352,986,524.09
 Direct loans                                           6,636,520.00                                   6,636,520.00                                6,636,520.00
 Direct Non-point source loans                          7,734,095.50                                   7,734,095.50                                7,734,095.50
 Total loans receivable                             1,125,596,117.39                  0.00         1,125,596,117.39                 0.00       1,125,596,117.39
  Less: Current portion                                51,954,853.77                                  51,954,853.77                               51,954,853.77
Loans receivable, net                               1,073,641,263.62                  0.00         1,073,641,263.62                 0.00       1,073,641,263.62

Fixed assets, net of accumulated depreciation             48,137.16                   0.00               48,137.16                                   48,137.16

Total assets                                        1,431,903,006.55          11,254,134.31        1,443,157,140.86       254,994,311.14       1,698,151,452.00

Liabilities and Net Assets:

Liabilities:

Current liabilities:
 Accounts payable                                               0.00             96,231.72               96,231.72                                   96,231.72
 Accrued salaries and benefits                                 (6.07)                                        (6.07)                                      (6.07)
 Project Costs Payable to Communities                                                                         0.00        248,464,006.85        248,464,006.85
 Interest Subsidies Payable to Communities                     0.00                                           0.00          6,072,507.71          6,072,507.71
 Bond Interest Payable                                24,201,063.29                                  24,201,063.29                               24,201,063.29
 Current Portion of Bonds Payable                     31,457,268.90                                  31,457,268.90                               31,457,268.90
 Due to other funds                                       23,840.35                                      23,840.35             36,406.58             60,246.93
 Other                                                         0.00                                           0.00            421,390.00            421,390.00
Total current liabilities                             55,682,166.47              96,231.72           55,778,398.19        254,994,311.14        310,772,709.33

Non-current liabilities:
 Bonds Payable, net of discounts                     741,781,708.90                                 741,781,708.90                              741,781,708.90
 Rebate Payable                                        4,973,447.94                                   4,973,447.94                                4,973,447.94
Total Liabilities                                    746,755,156.84                   0.00          746,755,156.84                  0.00        746,755,156.84

Net assets:
 Invested in capital assets, net of debt                  48,137.16                                      48,137.16                                   48,137.16
 Restricted for loans and debt service               629,417,546.08           11,157,902.59         640,575,448.67                              640,575,448.67
 Unrestricted                                                  0.00                    0.00                   0.00                  0.00                  0.00
Total net assets                                     629,465,683.24           11,157,902.59         640,623,585.83                  0.00        640,623,585.83

Total liabilities and net assets                $     1,431,903,007      $      11,254,134    $      1,443,157,141    $      254,994,311   $     1,698,151,452




                                                                        29

                                           State of Missouri
                                  Clean Water State Revolving Fund
                Combined Statement of Revenues, Expenses, and Changes in Fund Net Assets
                                             June 30, 2003
                                            (in thousands)



                                                                  Administrative Fee       Total Enterprise
                                                    Loan Fund          Fund                     Fund
Operating revenues:
 Interest income on SRF loans                       $    35,315                        $             35,315
 Investment income                                        4,351   $            269                    4,620
 Adminstrative fees                                           0              2,622                    2,622
 Hancock Amendment refunds                                    7                  1                        8
 Total operating revenues                                39,673              2,892                   42,565

Operating expenses:
 Interest expense on bonds payable                       35,558                                      35,558
 Interest Subsidy
 Salaries and benefits                                        3              1,666                    1,669
 Travel                                                       1                                           1
 Other administrative expenses                               55              1,229                    1,284
 Indirect costs                                             131                                         131
 Hancock Amendment                                            7                  1                        8
 Total operating expenses                                35,755              2,896                   38,651

 Operating income                                         3,918                  (4)                  3,914

Non-operating revenue:
 Environmental Protection Agency grant                   58,266                                      58,266
 State of Missouri contribution                          10,524                                      10,524
Total non-operating revenue                              68,790                                      68,790

Increase in net assets                                   72,708                  (4)                 72,704

Net assets, beginning of year                           556,758             11,162                  567,920

Net assets, end of year                             $   629,466   $         11,158     $            640,624




                                              30

                                                      Drinking Water State Revolving Fund
                                                            Combining Balance Sheet
                                                                June 30, 2003
                                                                                             Total
                                                                      Administrative       Enterprise
                                                    Loan Fund           Fee Fund             Fund        Agency Fund        Totals
Assets:
Current assets:
Cash and cash equivalents                       $      9,084,750      $      399,159   $     9,483,909   $ 28,129,431   $    37,613,340
Receivables:
 Loan interest                                         3,342,286                   -         3,342,286              -         3,342,286
 Investment interest                                           -                   -                 -        100,560           100,560
 Due from other funds                                      5,531                   -             5,531              -             5,531
 Due from trustee                                              -                   -                 -              -                 -
 Due from EPA                                          1,579,993                             1,579,993              -         1,579,993
 Other                                                       208             259,727           259,935              -           259,935
 Current portion of loans receivable                   4,621,839                   -         4,621,839              -         4,621,839
Total current assets                                  18,634,607             658,886        19,293,493     28,229,991        47,523,484

Restricted assets - cash and cash equivalents           397,220                    -           397,220              -          397,220

Non-current assets:
 Leveraged loans                                     135,825,000                   -       135,825,000              -       135,825,000
 Reserve loans                                        43,788,192                   -        43,788,192              -        43,788,192
 Direct loans                                          3,650,000                   -         3,650,000              -         3,650,000
 Total loans receivable                              183,263,192                           183,263,192                      183,263,192
  Current portion                                      4,621,839                   -         4,621,839              -         4,621,839
 Loans receivable, net                               178,641,353                           178,641,353                      178,641,353

Total assets                                         197,673,180             658,886       198,332,066     28,229,991       226,562,057

Liabilities and net assets:
Current liabilities:
 Accounts payable                                              -                   -                 -              -                 -
 Accrued salaries and benefits                                 -                   -                 -              -                 -
 Project costs payable to communities                          -                   -                 -     27,145,440        27,145,440
 Interest subsidies payable to communities                     -                   -                 -        451,657           451,657
 Bond interest payable                                 3,342,286                   -         3,342,286              -         3,342,286
 Current portion of bonds payable                      3,385,000                   -         3,385,000              -         3,385,000
 Due to other funds                                    1,579,993                             1,579,993          5,531         1,585,524
 Other                                                         -                   -                 -        627,363           627,363
Total current liabilities                              8,307,279                   -         8,307,279     28,229,991        36,537,270

Non-current liabilities:
 Bonds payable, net of discounts                     132,440,000                   -       132,440,000              -       132,440,000
 Rebate payable                                          402,959                   -           402,959              -           402,959
Total non-current liabilities                        132,842,959                   -       132,842,959              -       132,842,959

Total liabilities                                    141,150,238                   -       141,150,238     28,229,991       169,380,229

Total net assets                                      56,522,942             658,886        57,181,828              -        57,181,828

Total liabilities and net assets                $    197,673,180      $      658,886   $ 198,332,066     $ 28,229,991   $ 226,562,057




                                                                31

                                             State of Missouri
                                   Drinking Water State Revolving Fund
                                Combining Income Statement Drinking Water
                                     For the year ended June 30, 2003


                                                                   Administrative   Total Enterprise
                                                   Loan Fund         Fee Fund            Fund
Operating revenues:
 Interest income on SRF loans                  $       5,795,738   $           -    $      5,795,738
 Investment income                                       212,260           4,011             216,271
 Adminstrative fees                                            0         360,574             360,574
 EPA set-aside operating grants                        2,343,732               0           2,343,732
 Other                                                         0               0                   0
Total operating revenues                               8,351,730         364,585           8,716,315

Operating expenses:
 Interest expense on bonds payable                     5,786,753               0           5,786,753
 Salaries and benefits                                 1,267,053               0           1,267,053
 Other administrative expenses                         1,076,679              19           1,076,698
Total operating expenses                               8,130,485              19           8,130,504

Operating income                                        221,246          364,566             585,811

Non-operating revenue:
 Environmental Protection Agency grant                16,253,966               0          16,253,966
 State of Missouri contribution                        6,320,987               0           6,320,987
Total non-operating revenue                           22,574,953               0          22,574,953

Increase in net assets                                22,796,199         364,566          23,160,764

Net assets, beginning of year                         33,726,744         294,320          34,021,064

Net assets, end of year                        $      56,522,942   $     658,886    $     57,181,828




                                                32

                                               State of Missouri
                                     Drinking Water State Revolving Fund
                                       Schedule of Set-Aside Expenses
                                           Year Ended June 30, 2003



                                           Technical           Program        Local          Non-
      Cost Category     Administration     Assistance        Management      Assistance     classified         Total
Personnel             $    157,039       $    23,137       $    619,356     $ 151,751     $    26,430     $   977,713
Fringe Benefits             51,417              6,522           182,341        40,908           8,151         289,340
Travel                        4,729             2,925             1,033            518              35           9,240
Equipment                           -                -                  -             -               -               -
Supplies                      1,209             1,120            53,238            441               3         56,011
Contractual                   4,052         116,058             213,127       136,438          34,345         504,020
Other                       23,247              6,367             4,828          1,062         30,168          65,673
  Total Direct Cost        241,693          156,128           1,073,923       331,119          99,132       1,901,997
Indirect Cost               77,279            22,575            254,976        73,145          13,761         441,735
  Total Cost          $    318,972       $  178,704        $ 1,328,899      $ 404,264     $ 112,893       $ 2,343,732




                                                    33

Report Distribution

EPA, Headquarters:

Director, Grants Administration
Agency Followup Coordinator
Associate Administrator for Congressional
         and Intergovernmental Relations
Associate Administrator for Communications,
         Education and Public Affairs
Infrastructure Branch Chief
CWSRF Coordinator
CWSRF Audit Manager

EPA, Region 7:

Regional Administrator
Water Division Acting Director
Office of Water
Office of Drinking Water
CWSRF Coordinator

State of Missouri:

Department of Natural Resources
